                      CLOSEOUT FOR M90050023
     On October 8, 1991, OIG signed a memorandum closing this case.
The following day, OIG learned that the Office of Research
Integrity (ORI) at the Department of Health and Human Services had
concerns about the university investigation. The university had
found that the subject had not committed misconduct. Because OIG
believed it was possible that new investigative efforts by OR1 or
the university would develop evidence indicating.thatmisconduct
had taken place, OIG decided to delay officially closing the case
until OR1 resolved its concerns.
     Some OR1 concerns about the original investigation involved
the university's failures to adhere to its own procedures. OIG has
determined that the alleged failures did not compromise the
fundamental fairness of the investigation and did not support a
decision to investigate this case further.
     OR1 reviewed the evidence bearing on the data falsification
allegations in this case.     OIG analyzed ORI1s letter to the
university explaining ORIrs decision to close the case. ORI's
letter contains no information that would cast doubt on OIGts
judgment, expressed in the October 8, 1991 memorandum, that this
case ought to be closed. OR1 likewise produced no such information
in response to an OIG letter requesting it.
     This case is closed and no further action will be taken.




                           page 1 of 1
                     Closeout of M900050023


This case began on May 9, 1990 when OIG received a call from the



                                                      e Department

were received from these sources. Most were related to National
Institutes of Health, rather than NSF, funding.
At the request of the second complainant the institution
conducted a formal investigation into the allegations. NSF has
received the investigative report. The allegations pertaining to
NSF funding fall into three groups,         The first is that the
subject presented fabricated data in a publication.             The
investigating committee found adequate evidence that the
experiments were performed, and O I G accepted this as a resolution
of the matter.
The second allegation has to do with a proposal that the subject
submitted to NSF.   It was claimed that the subject plagiarized
the ideas of the second complainant in preparing the proposal and
should have asked the complainant to be a co-Principal
Investigator. The investigating committee found that the subject
was experienced in the field of research and not entirely
dependent on the complainant, as alleged. It also found that the
complainant was a post-doctoral fellow and research associate
working under the subject's direction and supported by the
subject's grant. The investigating committee concluded that the
subject was entitled to treat the complainant's ideas,
experiments, and data as part of the overall project, and was not
obliged to name the complainant as a collaborator or co-PI. O I G
accepted these conclusions.
The third group of allegations has to do with a paper that the
subject and the second complainant submitted for publication.
Several issues were raised: The subject included the paper in
the proposal to NSF, indicating that it was "in press". In fact,
it was not, .and had actually been sent back by the editor. The
investigating committee found that the subject gave an
unsatisfactory explanation for his error in so describing the
paper. O I G agreed that this was a careless error. However, we
have not found that it had any serious consequences. Therefore
this matter will not be pursued further.
Another allegation related to the paper had to do with the
subject's right to be a co-author. O I G judged that this followed
from his position as research director. Similarly, there was a
complaint because he withdrew the paper from publication when he
decided it was technically flawed. The investigating committee
found that he was within his rights in doing this, and OIG
concurred.
The university panel concluded that all charges against the
subject should be dropped.     OIG concurs, with regard to the
allegations that concern NSF. The case can now be closed, with
notification to those who have dealt with us on this matter: the
university, the complainants, and the Office of Scientific
Integrity at NIH.



Donald E. Buzzelli
October 4, 1991

Copies: IG
        AIG-0
